AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 20-305
X
PLANNED PARENTHOOD CENTER OF CHOICE, ET AL.
Petitioners,
v.
GREG ABBOTT, GOVERNOR OF TEXAS, ET AL.,
Respondents.
X
STATE OF NEW YORK
COUNTY OF NEW YORK )
I, Candice Best, being duly sworn according to law and being over the age of 18,
upon my oath depose and say that:
I am retained by Counsel of Record for Respondents.
That on the 22" day of January 2021, I served the within Supplemental Brief in
the above-captioned matter upon:
Julie Alyssa Murray
PLANNED PARENTHOOD FEDERATION OF AMERICA
Counsel for Petitioners
1110 Vermont Avenue, NW, Suite 300
Washington, DC 20005
(202) 803-4045
julie.murray(4pfa.org
by sending three copies of same, addressed to each individual respectively, and
enclosed in a properly addressed wrapper, through the United States Postal Service, by
Express Mail, postage prepaid. An electronic version was also served by email to each
individual.
That on the same date' as above, I sent to this Court forty copies and 1 un-bound
copy of the within Supplemental Brief through the United States Postal Service by
Express Mail, postage prepaid. In addition, the document has been submitted through the
Court's electronic filing system.

All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 22'd day of January 2021

Candice Best

Sworn to and subscribed before me
2211d day of January, 2021.

MARIA MAISONET
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2021

